V

26-8046

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court,US'
FILED

MAY - 6 2021
SHAWN BISHOP, PETITIONER

OFFICE of THF rv

vs.
SUPERINTENDENT SMITHFIELD SCI, ET AL.

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Mr. Shawn Bishop, #FQ-6133
SCI-Chester
500 E. Fourth Street
Chester, PA 19013-4551

y \

V

QUESTION(S) PRESENTED
l.Does a curative instruction remedy a Confrontation Clause
violation where the evidence used to convict is scant and the co­
defendant's alleged confession was the only direct evidence of
Petitioner's guilt; and was trial counsel derelict in not objecting to
instruction as being suffice to cure Confrontation Clause violation?
2. Is a Petitioner's right to due process violated when a prosecutor
in closing arguments vouches for the credibility of its witnesses,
and trial counsel objects, but fails to request remedial instruction
to cure the comments?
3. Can a State evidentiary ruling deny a defendant due process if
it prevents him from putting forth evidence that supports the
defense theory of the case?
4. Can a defendant be convicted of first-degree murder and
sentenced to life without the possibility of parole where he is
charged as an accomplice but never knew or participated in the
actual crime?

w

w

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

i

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...3
STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

23
INDEX TO APPENDICES

APPENDIX A

Third Circuit Court of Appeals Opinion

APPENDIX B

District Court Opinion

APPENDIX C

Magistrate Report and Recommendation

i

V

TABLE OF AUTHORITIES CITED
PAGE NUMBER

SUPREME COURT CASES
Berger v. United States, 295 U.S. 78 (1935)

13

Bruton v. United States. 391 U.S. 123 (1968)

.9, 11

Chambers v. Mississippi. 410 U.S. 284 (1973)

17

Jackson v. Virginia. 443 U.S. 307 (1979)

21

Johnson v. Louisiana. 406 U.S. 356, 362 (1972)

21

Martinez v. Ryan. 566 U.S. 1 (2012)

10, 13

Strickland v. Washington. 466 U.S. 668 (1984)

16

United States v. Young. 470 U.S. 1 (1985)

14

FEDERAL APPEAL COURT CASES

PAGE NUMBER

Gov't of Virgin Islands v. Mills. 956 F.2d 443 (3rd cir.1992) ....19
Marshall v. Hendricks. 307 F.3d 36 (3d Cir.2002)

14

U.S. v. Cornett 232 F.3d 570 (7th Cir.2000)

15

U.S. v. Delgado. 631 F.3d 685 (5th Cir.2011)

15

li

STATE COURT CASES
Commonwealth v. Bradley. 392 A.2d 688, 690 (Pa.1978)...

20

Com. V. Cox. 686 A.2d 1279, 1286 (Pa.1997)

21

Com. V. Sootz. 716 A.2d 580, 585 (Pa. 1998)

20

Com. V. Waaman. 627 A.2d 735, 740 (Pa.Super. 1993)

21

Com. V. Woodward. 614 A.2d 239, 242 (Pa.Super.1992)

20

STATUTE AND RULES

PAGE NUMBER

Pennsylvania Rules of Evidence 806

17, 18

ABA Standards for Criminal Justice

14

18 Pa.C.S. § 306

20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.
OPINIONS BELOW
The opinion of the United States court of appeals appears at
Appendix "A" to the petition is unpublished.
The opinion of the United States district court appears at
Appendix "B" reported at 2020 U.S. Dist. LEXIS 49988 (March 23,
2020).
The opinion of the United States Magistrate Judge appears at
Appendix ”C" reported at 2019 U.S. Dist. LEXIS 95986 (June 5,
. 2019).

GD

□
1

V

JURISDICTION
The date on which the United States Court of Appeals decided
my case was February 18, 2021.
The jurisdiction of this Court is invoked under 28 U.S.C.

§1254(1).

2

i

CONSTITUTIONAL PROVISIONS INVOLVED
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed
of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of
Counsel for his defense. Amendment 6 Rights of the accused.
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof,
are citizens of the United States
/
and of the State wherein they reside. No State shall , make or
enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor

3

u

S&

deny to any person within its jurisdiction the equal protection of
the laws.

3. (a)

STATEMENT OF THE CASE
On August 21, 2014, Petitioner initiated a habeas corpus
petition ("petition") in the United States District Court for the
Eastern District of Pennsylvania, 28 U.S.C. § 2254 after exhausting
state court remedies. Several of the claims raised in the petition
were not raised in the state court, however, Petitioner argued that
the procedural default be excused under this Court's precedent in
Martinez v. Ryan, 566 U.S. 1 (2012).
The United States District Court for the Eastern District of
Pennsylvania denied the petition without a hearing. Thereafter,
Petitioner sought a Certificate of Appealability in the United States
Court of Appeals for the Third Circuit. The request was denied on
February 18, 2021.
Petitioner seeks redress in this Court to correct a clear
malfunction of the Pennsylvania State Court judicial system in
convicting him of first-degree murder despite his rights being
violated in contravention of the Sixth and Fourteenth Amendments
rights of the United States Constitution.

4

RELEVANT FACTS
Petitioner was tried with a co-defendant Kamil McFadden
(McFadden) for the shooting death of Asmar Davis. The prosecution
sought to introduce the confession of Petitioner's co-defendant
McFadden by calling Rahjai Black (Black) to testify to the contents
of McFadden's confession. Prior to the testimony of Black, the judge
and prosecutor admonished Mr. Black not to mention the name of
Petitioner Shawn Bishop. On direct examination by the prosecution
the following testimony was elicited by the prosecutor:
Q. Once Mr. McFadden saw the white car, what, if
anything, did Mr. McFadden do? What did he tell
you he did once he saw the car with Mr. Davis?
A. He didn't do anything. Shawn drove.
Immediately following this exchange, trial counsel objected
and a sidebar discussion was held and the following took place:
TRIAL COUNSEL: I would ask for a mistrial,
judge. He already said what happened. The guy
told him he killed him. Now what did you see when
you saw him in a car? There is no reason for him
to be asked any questions about that, judge.

5

THE COURT: I thought you had cautioned him on
that about [Petitioner], Ms. Ruiz?.....
THE COURT: I will certainly caution the jury at this
point. I will not grant a mistrial because there will
be other testimony about that.
[SIDEBAR CONCLUDES]
THE COURT: jurors, I want to caution you, what
Mr. Black testifies what Mr. McFadden told him
about himselfMr. McFadden, you can take as
evidence; howeveranything that Mr. Black says
that Mr. McFadden told him about anybody else,
including [Petitioner], is not evidence in this
case....

N.T. 11/4/03 at 10-11; 172-75.
It merits mention that the prosecutions key witness against
Petitioner, Harry Gadson, preliminary hearing testimony was read
into the record at trial because he was deemed unavailable. Mr.
Gadson's last words read into the record were "Petitioner had
nothing to do with the crime as I had nothing to do with the crime."
N.T. 11/6/03 at 87-88. Mr. Gadson was never charged with any
crime.
During the prosecutions summation, the following occurred:
Mr. McFadden got people that wouldn't tell. Mr.
Bishop [petitioner] surely wasn't going to tell, and
Mr. Gadson didn't tell anyone, unless maybe he
6

told his sister because remember what he said at
the preliminary hearing, after I left, I went to my
sister's house. Bidia Hayman was his sister.1

N.T. 11/10/03, at 41-42.
He is willing to sit here and lie to you about what
he knows? Don't think for one minute that, in fact,
when he spoke to the feds, or even when he spoke
to Detective Pirrone, that some of that stuff is
not checked out.
Do you think that the federal authorities or any
authority's just mamby-pamby believe what he
had to say, or do you think that maybe they
checked it out?
TRIAL COUNSEL: Objection. There is no
evidence that the feds—how did they check it out?
THE COURT: I will sustain that. There is no
evidence of that.

N.T. 11/10/03, at 55-56.
Well, Detective Pirrone didn't just stop there.
What did he say to you? He says I was going to
check out what it was that Gadson had to
say. He didn't just as soon as he heard Gadson
and what he had to say, that he just went ahead
and arrested these two men. He went and
checked it out.
TRIAL COUNSEL; Objection. There is no
evidence anybody checking anything out.
PROSECUTOR: So, he testified to you, yes, I
checked it out, and I was talking to other people.

1 The trial judge had already instructed the prosecutor about this witness. THE COURT: I ruled.
Bidia Hayman, anything he has done with Bidia Hayman is not admissible. N.T. 11/6/03, at
41; see also 40-45.
7

TRIAL COUNSEL. Objection. What does that
mean? Did other people cooperate when it is not
true?

N.T. 11/10/03, at 56-57.
PROSECUTOR; He interviewed several people.
One of the people that he interviewed was Mr.
Gadson's sister. She is not here.
,Do you remember when he said I went home
to my sister. Is it a coincidence that neither Mr.
Gadson nor his sister are here? Do you think that
maybe the sister had some information that would
be helpfulTRIAL COUNSEL; This is way, way out of line.
This is the fourth time.

N.T. 11/10/03 at 57-58.
Petitioner was found guilty as an accomplice and sentenced to
a mandatory life without parole to be served in the Pennsylvania
Department of Corrections. He comes before the high court of the
land seeking to vindicate his rights substantiated by the United
States Constitution.

8

*

REASONS FOR GRANTING WRIT OF CERTIORARI

1. Does a Curative Instruction Remedy a Confrontation Clause
Violation Where the Evidence Used to convict is Scant and the CoDefendant's Allege Confession Was the Only Direct Evidence of
Petitioner's Guilt; And Was Trial Counsel Derelict in Not Objecting
to Instruction as Being Suffice to Cure Confrontation Clause
Violation?

The Rule of Bruton v. United States, 391 U.S. 123 (1968),
promulgated by this Court, held that incriminating out-of-court
confessions of co-defendant who did not take the witness stand
and

could

not

be

cross-examined

is

inadmissible,

under

confrontation clause of Sixth Amendment, at joint trial when,
despite instructions to contrary, there is substantial risk that jury
will look to out-of-court statement in deciding guilt of other
defendant, is applicable to state trial proceedings.
This claim presented to the United States District Court for the
Eastern District of Pennsylvania alleging inter alia that trial
counsel's performance was deficient for not objecting to curative
instruction to remedy a violation of Petitioner's confrontation
9

clause rights, when Rahjai Black mentioned Petitioner's name while
testifying regarding a confession given to him by Petitioner's co­
defendant Kamil McFadden in joint trial, was not presented to the
Pennsylvania state courts. See Appendix "C."
Petitioner presented the claim under this Court standards
enunciated in Martinez v. Ryan, 566 U.S. 1 (202). Martinez
recognized a "narrow exception" to the general rule that attorney
errors in collateral proceedings do not establish cause to excuse a
procedural default, holding, "[inadequate assistance of counsel at
initial-review collateral proceedings may establish cause for a
prisoner's procedural default of a claim of ineffective assistance at
trial." 566 U.S. at 9.
The district court in a run of the mill opinion claimed that trial
counsel did object, therefore, he could not be found ineffective for
something that he did do. See Report and Recommendation (R&R)
at 25; Appendix "C"; See Appendix "B" (district court judge
adopting R&R). The Third Circuit Court of Appeals denied request
for Certificate of Appealability. See Appendix "C."

10

k

Petitioner

respectively

disagrees

with

the

district

court

interpretation of this Court' clearly established federal law in
Bruton,

and

avers that

he

has

experienced

an

extreme

malfunction of the State's criminal justice system for which federal
habeas relief is the remedy. Reasonable jurist would not debate
that the district court unreasonably applied this Court's ruling in
Bruton v. United States, supra.
A cursory review of the state court record contradicts the
findings of the district court which in turn allowed Petitioner's right
to confrontation to be infringed and a conviction for first-degree
murder accompanied by a life-without parole sentence to stand.
As discussed in the Statement of the Case2, pgs 4-8, trial
counsel objected to the mention of Petitioner's name, but did not
object to the giving of a curative instruction as a remedial measure
to cure taint held by this Court as not acceptable and not adequate
to substitute for a defendant's constitutional rights of crossexamination. Bruton, at 137.

2 Petitioner refers to Statement of the Case for the sake of redundancy.

11

.•

A review of the trial record refutes the findings of the district
court. Trial counsel agreed that a curative instruction would suffice
to a cure a violation of Petitioner's right to confrontation because
he failed to object to the instruction. A decision {strategy}that this
Court held is insufficient due to the harm it imposes on the jury..
Trial counsel's inactions were magnified wherein the inadmissible
evidence {co-defendant's confession} was the only damning
evidence against Petitioner.
After the testimony of Harry Gadson's preliminary hearing
transcripts were read into the record, the court recessed for the
morning. Upon returning, trial counsel offered a motion for
judgment of acquittal. Counsel argued that there was no evidence
that Petitioner knew what McFadden {co-defendant] intended to
do. The prosecutor stated, " I am not saying it is the strongest case
in the world and, of course, I would have loved to have Mr. Gadson
here to testify....it is enough to go to the jury." T.T> 11/6/03, at
89-92. The trial judge allowed the case to go to the jury, but
stated, "It is extremely weak, I agree. "Id. at 93.

12

Notably, the trial judge stated to the defense, "I will tell you if
the jury should convict him, I would certainly reexamine this issue
on post-sentence motions very strenuously..."id. at 94. After
Petitioner's conviction, trial counsel failed to file any post-sentence
motions.

2 .Isa Petitioner's Right to Due Process Violated When a Prosecutor
in Closing Arguments Vouches for the Credibility of its Witnesses,
and Trial Counsel Objects, But Fails to Request Remedial
Instruction to Cure the Comments?
Over a half-century ago, this Court explained in Berger v.
United States, 295 U.S. 78 (1935), that the prosecutor has a
special obligation to avoid "improper suggestions, insinuations,
and, especially, assertions of personal knowledge are apt to carry
much weight against the accused when they should carry none.
Like issue (1), this claim was not presented to the Pennsylvania
state court, but argued for the first time in the United States
District Court for the Eastern District of Pennsylvania under the
standard articulated by this Court in Martinez v. Ryan, 566 U.S.

1 (2012).
13

As discussed in the Statement of the Case Section pgs. 4-8,
the prosecutor's remarks were highly incendiary and denied
Petitioner a fair trial. In United States v. Young, 470 U.S. 1
(1985), this Court expressly stated the prosecutor vouching for the
credibility of witnesses and expressing his personal opinion
concerning the guilt of the accused pose two dangers: Such
comments convey the impression that evidence not presented to
the jury, but known to the prosecutor, supports the charges
against the defendant can thus jeopardize the defendant's right to
be tried solely on the basis of the evidence presented to the jury;
and the prosecutor opinion carries with it the imprimatur of the
government and may indue the jury to trust the government's
judgment than its own view of the evidence. See ABA Standards
for Criminal Justice.
Throughout closing arguments, at least four instances the
prosecutor repeatedly interjected comments geared to solidify the
veracity of the State's witnesses. This type of decorum is prohibited
and frowned upon by the courts. See Marshall v. Hendricks, 307
F.3d 36, 65 (3d Cir.2002)(improper for prosecutor to state that
14

government witness was telling the truth); U.S. v. Delgado, 631
F.3d 685, 700 (5th Cir.2011), on reh'g en banc, 672 F.3d 320 (5th
Cir.2012)("It is axiomatic that prosecutor cannot express to the
jury their personal opinions concerning the credibility of witnesses
or the defendant."); U.S. v. Cornett, 232 F.3d 570, 575 (7th
Cir.2000)("Improper vouching occurs when a prosecutor expresses
her personal opinion about the truthfulness of a witness or when
she implies that facts not before the jury lend a witness
credibility...").
Flere, the prosecutor's actions denied Petitioner a fair trial.
Because the remarks were of such nature that they lead the jury
to believe that evidence existed that was not presented to them
that established Petitioner's guilt, trial counsel's inactions in not
requesting at a minimum, a curative instruction, denied Petitioner
his rights guaranteed under both the Sixth and Fourteenth
Amendments to the United States Constitution.
A review of the closing arguments shows that the prosecutor
struck "fouls blows" instead of "fair blows." For instance, the
prosecutor was admonished not to mention the sister of the key
15

witness Harry Gadson, Bidia Hayman, during closing arguments.
The prosecutor ignored that admonition from the trial judge and
continued her assault on Petitioner's right to a fair trial. T.T.

11/6/03,. at 40-45.
The district court opinion which the Third Circuit Court of
Appeals adopted unreasonably applied this Court's precedent in
determining that the remarks were not improper to the level of
denying Petitioner a fair trial.
In Strickland v. Washington, 466 U.S. 668, 80 Led.2d 674,
104 S.Ct. 2052 (1984), this Court ruled that a defendant alleging
ineffective assistance of counsel must demonstrate that: (1) his
attorney's performance was deficient, and (2) he was prejudiced
by the deficiency. Id. at 687.
In the case at bar, the comments made by the prosecutor were
objectionable as shown by trial counsel's actions and the trial
court's sustaining of the objection. However, without a curative
instruction the comments unfairly denied Petitioner a fair trial and
his right to effective assistance of counsel for his defense.

16

3. Can a State Evidentiary Ruling Deny a Defendant Due Process if
it Prevents Him From Putting Forth Exculpatory Evidence That
Supports the Defense Theory of the Case?

In Chambers v. Mississippi, 410 U.S. 284 (1973), this Court
ruled that Chambers rights were violated by a State rule that a
party may not impeach his own witness. This rule applied so as to
preclude the accused from cross-examining a witness called by the
accused to introduce such witnesses written confession of the
crime, the accused having sought to cross-examine the witness as
an adverse witness after the witness, on cross-examination by the
State, repudiated his written confession and asserted an alibi, and
that the States hearsay rule was applied so as to preclude the
accused from introducing testimony, critical to the defense of 3
other witnesses as to 3 separate oral confessions allegedly made
to them by the first witness shortly after the crime.
Instantly, the Pennsylvania Rules of Evidence 806 in relevant
part states the following:

17

. i

Rule 806. Attacking and Supporting the Declarant's credibility
When a hearsay statement has been admitted in
evidence, the declarant's credibility may be
attacked, and then supported, by any evidence that
would be admissible for those purposes if the
declarant had testified as a witness. The court may
admit evidence of the declarant's inconsistent
statement or conduct, regardless of when it
occurred or whether the declarant had an
opportunity to explain or deny it. If the party
against whom the statement was admitted calls the
declarant as a witness, the party may examine the
declarant on the statement as if on crossexamination.
At the trial in the instant matter, Petitioner's co-defendant
sought to introduce testimony pursuant to clearly established
Pennsylvania Rules of Evidence, specifically Rule 806. The evidence
consisted of statements from Rosemary Westbrook and Leroy
Drayton the parents of Petitioner's co-defendant. Mrs. Westbrook
and Mr. Drayton would have testified that Harry Gadson, the key
witness, stated during an encounter after the preliminary hearing
that he was forced to testify as he did at the preliminary hearing
and apologized to the parents because the police forced him to
testify as he did.

18

The trial court did not allow this testimony notwithstanding the
fact that this evidence fell squarely within the parameters of
Pa.R.E. 806. Moreover, the trial court's ruling denied Petitioner his
Sixth Amendment right to compulsory process. See Government
of Virgin Islands v. Mills, 956 F.2d 443, 445-46 (3d Cir.
1992)(discussing the right of the accuse to offer testimony of
favorable witnesses and "to have compulsory process for obtaining
witnesses in his favor.").
As a result of the arbitrary state court ruling, an innocent man
remains behind bars serving a sentence of first-degree murder
without the possibility of parole where the only evidence that
somewhat implicates him could not be challenge denying him due
process of law.

4. Can a Defendant Be Convicted of First-Degree Murder and
Sentenced to Life Without the Possibility of Parole Where He is
Charged as an Accomplice But never Knew or Participated in the
Actual Crime?

It is well established, however, that a defendant, who was not
a principal actor in committing the crime, may nevertheless be
19

liable for the crime if he was an accomplice of a principle actor. See
18 Pa.C.S. §306; see also Commonwealth v. Bradley, 392 A.2d
688, 690 (Pa.l978)(the actor and his accomplice share equal
responsibility for commission of a criminal act). A person is deemed
an accomplice of a principle if "with the intent of prompting or
facilitating the commission of the offense, he: (i) solicit the
principle to commit it; or (ii) aided or agreed or attempted to aid
such other person in planning or committing it." 18 Pa.C.S. §306;
Commonwealth v. Spotz, 716 A.2d

580,

585 (Pa. 1998).

Accordingly, two prongs must be satisfied for a defendant to be
found

guilty

as

an

accomplice."

See

Commonwealth

v.

Woodward, 614 A.2d 239, 242 (Pa.Super. 1992). First, there must
be evidence that the defendant intended to aid or promote the
underlying offense. Id.
Second, there must be evidence that the defendant actively
participated in the crime by soliciting, aiding, or agreeing to aid the
principle. Id. While these two requirements may be established by
circumstantial evidence, a defendant cannot be an accomplice
simply based on evidence that he knew about the crime or was

20

present at the crime scene. Commonwealth v. Wagman, 627
A.2d 735, 740 (Pa.Super. 1993). There must be additional evidence
that the defendant intended to aid in the commission of the
underlying crime, and then aid or attempted to do so. Id. With
regard to the amount of aid,, it need not be substantial so long as
it was offered to the principal to assist him in committing or
attempting to commit the crime. See Commonwealth v. Cox, 686
A.2d 1279, 1286 (Pa.1997).
The clearly established federal law governing this claim is
Jackson v. Virginia, 443 U.S. 307 (1979). Under Jackson, "the
relevant question is whether, after viewing the evidence in light
most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a
reasonable doubt." Id. 443 U.S. at 319 citing Johnson v.
Louisiana, 406 U.S. 356, 362 (1972).
At the close of the prosecution's case, trial counsel requested a
motion for acquittal based upon insufficient evidence. After a brief
discussion between all parties, the trial court stated the following:
Mr. Santiguida [trial counsel] it is extremely weak, I agree, but I
21

n

have to look at every inference in favor of the Commonwealth..../
will tell you if the jury should convict him, I would certainly
reexamine this issue on post-sentence motions very strenuously
with case law hopefully, but at this point I will leave him in the
case." Id. T.T. 11/6/03, 93-94.
The State court record is clear that the case against Petitioner
was extremely weak as stated by the trial judge. It violates due
process where a conviction is secured when the elements of the
crimes were not established or presented by the Commonwealth.
That is exactly the case here.
Harry Gadson testified that "he had nothing to do with the crime
as Petitioner had nothing to do with the crime." Mr. Gadson and
Petitioner was in the car joy riding prior to the co-defendant
entering the car. There was no evidence that these men conspired
to meet up. There encounter was by happenstance.
As the result of Petitioner's conviction, an extreme malfunction
of the state court process occurred.

22

'

CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,

Is/.
Date:

/Vfy

<1; <9-021

23

